      DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General

                                                                            Washington, D.C. 20201




December 28, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of the Centers for Disease Control and Prevention’s Accountability for
               Property (A-04-07-01054)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s accountability for property. We initiated this review based on a congressional
request.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be posted
at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-04-07-01054 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




         REVIEW OF THE
CENTERS FOR DISEASE CONTROL AND
  PREVENTION’S ACCOUNTABILITY
         FOR PROPERTY




                       Daniel R. Levinson
                        Inspector General

                         December 2010
                         A-04-07-01054
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Department of Health & Human Services, Centers for Disease Control and Prevention
(CDC), maintains various types of accountable property (property) in the United States and
overseas. As of September 30, 2007, CDC’s Property Management System (property system)
listed 49,837 items totaling $350 million as located in the United States.

Accountability for Government Property

CDC’s Procurement and Grants Office (PGO), which is responsible for managing CDC property
in accordance with Federal requirements, contracts for an annual physical inventory of property.
The PGO Property Accountable Officer should document all transactions that affect property
received, on hand, and disposed of. The physical control of property in each jurisdiction, or
custodial area, is the responsibility of Property Custodial Officers employed in various CDC
centers.

Prior Office of Inspector General Audit

In a 1995 report (A-15-94-00020), we found deficiencies in CDC’s property accountability. We
recommended that CDC strengthen management controls by (1) resolving the status of missing
property, (2) reconciling the physical inventory results to the property system and the property
system to the general ledger, (3) separating key property management duties to maintain an
adequate system of checks and balances, (4) conducting a comprehensive management control
review, and (5) establishing and promoting the use of a hotline for the anonymous referral of
information on property at risk.

Congressional Request

We initiated this audit based on a congressional request.

OBJECTIVE

Our objective was to determine whether CDC’s property system was accurate and complete.

SUMMARY OF FINDINGS

CDC’s property system was neither accurate nor complete. Of 200 items sampled from the
property system, we located 185. We could not locate the 15 remaining items. Based on these
sample results, we estimated that CDC had lost or misplaced approximately $8.2 million worth
of Government property as of September 30, 2007. Furthermore, CDC did not add all newly
acquired property to the property system. Of 200 sampled purchase orders paid during FY 2007,
CDC had appropriately added 171 property items to the property system. For the 29 remaining
items, CDC either had not added the items to the property system or had recorded the items in
the property system at amounts less than the purchase costs. Based on these sample results, we

                                                 i
estimated that the property system was understated by approximately $1.5 million for purchases
made during FY 2007.

These inaccuracies occurred because CDC did not always adjust the property system to reflect
the results of the annual physical inventory and did not barcode all newly acquired property for
entry in the property system. Based on these continuing problems with property accountability,
we concluded that CDC had not fully implemented the recommendations in our prior report to
strengthen management controls over property.

RECOMMENDATIONS

We recommend that CDC improve its controls over property by:

   •   adjusting the property system based on annual physical inventory results and removing
       from the property system any lost or missing property, including the estimated
       $8.2 million worth that we identified;

   •   ensuring that all newly acquired property items, including at least $1.5 million worth of
       items acquired in FY 2007, are barcoded and correctly added to the property system; and

   •   reconciling the general ledger to the property system to identify any outstanding
       discrepancies and resolving such discrepancies.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC concurred with our recommendations. The complete
text of CDC’s comments is included as Appendix E.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                    Page

INTRODUCTION ................................................................................................................ 1

          BACKGROUND ...........................................................................................................        1
              Accountability for Government Property ..........................................................                         1
              Prior Office of Inspector General Audit ............................................................                      1
              Congressional Request .......................................................................................             2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                   2
               Objective ............................................................................................................   2
               Scope ................................................................................................................   2
               Methodology ......................................................................................................       2

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          LAWS AND GUIDANCE............................................................................................. 4

          INACCURATE AND INCOMPLETE PROPERTY SYSTEM................................... 5
              Missing Property Still in the Property System ................................................... 5
              Purchases Not Included in the Property System or Included at
                the Incorrect Value .......................................................................................... 5

          INADEQUATE CONTROLS FOR UPDATING THE PROPERTY SYSTEM .......... 5
               Annual Physical Inventory Results Not Used To Adjust the
                Property System .............................................................................................. 5
               Newly Acquired Property Not Barcoded ........................................................... 6

          CONCLUSION .............................................................................................................. 6

          RECOMMENDATIONS ............................................................................................... 7

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 7

APPENDIXES

          A: PROPERTY SAMPLING METHODOLOGY

          B: PROPERTY SAMPLE RESULTS AND ESTIMATES

          C: PURCHASE ORDERS SAMPLING METHODOLOGY

          D: PURCHASE ORDERS SAMPLE RESULTS AND ESTIMATES

          E: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

                                                                    iii
                                               INTRODUCTION

BACKGROUND

The Department of Health & Human Services (HHS), Centers for Disease Control and
Prevention (CDC), maintains various types of accountable property (property) 1 in the United
States and overseas. As of September 30, 2007, CDC’s Property Management System (property
system) 2 listed 49,837 items totaling $350 million as located in the United States.

Accountability for Government Property

CDC’s Procurement and Grants Office (PGO), which is responsible for managing CDC property
in accordance with Federal requirements, contracts for an annual physical inventory of property.
The PGO Property Accountable Officer (Accountable Officer) should document all transactions
that affect property received, on hand, and disposed of. The physical control of property in each
jurisdiction, or custodial area, is the responsibility of Property Custodial Officers (Custodial
Officers) employed in various CDC centers.

During fiscal year (FY) 2007, CDC was transitioning from the stand-alone property system to
the Property Management Information System (PMIS). 3 The PMIS was designed to interface
with the Integrated Contract Expert, which was CDC’s purchasing system, and with the HHS-
wide Unified Financial Management System (financial system).

Prior Office of Inspector General Audit

In a 1995 report, 4 we found that items unaccounted for during CDC’s FY 1992 inventory
remained unaccounted for in the FY 1993 inventory. Additionally, we found that CDC did not:

      •    have policies and procedures for resolving the status of missing property,

      •    properly reconcile the property system to the general ledger,

      •    have adequate separation of duties, or


1
 The HHS Logistics Management Manual (LMM), dated June 7, 2007, subchapter E, part 103-27.5002, defines
“accountable property” as “[p]ersonal property with an acquisition value of $5,000 or more with a useful life
expectancy of more than 2 years, sensitive items (weapons, including tranquilizer guns; portable personal
computers; and other items designated as sensitive by a component of HHS), and leased property, without regard to
value.”
2
 The property system was designed to list the status of each property item (on hand, idle, in storage, on loan, etc.),
as well as the item description, barcode, serial number, manufacturer, acquisition cost, acquisition date, purchase
order number, Federal stock classification, user name, and location.
3
    CDC completed the transition to the PMIS in May 2008.
4
 Review of the Centers for Disease Control and Prevention’s Resolution of Unaccounted for Property
(A-15-94-00020).

                                                           1
    •   conduct a comprehensive management control review of property every 5 years as
        required by the HHS Material Management Manual. 5

We recommended that CDC strengthen management controls by (1) resolving the status of
missing property, (2) reconciling the physical inventory results to the property system and the
property system to the general ledger, (3) separating key property management duties to maintain
an adequate system of checks and balances, (4) conducting a comprehensive management
control review, and (5) establishing and promoting the use of a hotline for the anonymous
referral of information on property at risk.

Congressional Request

We initiated this audit based on a congressional request.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC’s property system was accurate and complete.

Scope

Our audit covered (1) the approximately $350 million worth of property listed in the property
system as located in the United States as of September 30, 2007, and (2) property purchase
orders totaling $8.9 million that were paid during FY 2007.

We limited our assessment of internal controls to CDC’s property management activities and
those financial management activities related to accounting for property.

We conducted fieldwork at CDC’s offices in Atlanta, Georgia; Cincinnati, Ohio; Morgantown,
West Virginia; Pittsburgh, Pennsylvania; Fort Collins, Colorado; and Hyattsville, Maryland.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed our 1995 report;

    •   reviewed CDC’s policies and procedures to gain an understanding of its internal controls
        related to our audit objective;



5
 The current HHS Material Management Manual does not require a management control review of property every
5 years.

                                                     2
   •   interviewed CDC officials responsible for internal controls over the property system;

   •   attempted to verify the existence of property included in the property system by:

           o obtaining from the property system a list of property as of September 30, 2007,
             and excluding all items listed as located outside the United States;

           o selecting from the 49,837 property items listed as located in the United States a
             stratified random sample of 200 items: 100 items valued at less than $5,000,
             70 items valued at $5,000 to less than $400,000, and all 30 items valued at
             $400,000 or more (Appendix A);

           o performing a physical inventory of each sampled property item by barcode, serial
             number, location, make, and model; and

           o estimating the value of missing property listed in the property system as located in
             the United States (Appendix B);

   •   attempted to verify the completeness of the property system by:

           o obtaining from the financial system a file of the 992 property purchase orders paid
             during FY 2007;

           o selecting from the file of property purchase orders a stratified random sample of
             200 purchase orders: 92 purchase orders valued at $1,000 to less than $20,000
             and all 108 purchase orders valued at $20,000 or more (Appendix C);

           o attempting to track the 200 sampled purchase orders from the financial system to
             the property system; and

           o estimating the value of property purchased in FY 2007 that was not recorded or
             that was improperly recorded in the property system (Appendix D);

   •   attempted to reconcile the general ledger to property system records;

   •   interviewed the Accountable Officer and CDC contractor officials to gain an
       understanding of the procedures used to conduct the FY 2007 physical inventory; and

   •   discussed our preliminary findings with CDC officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                               3
                             FINDINGS AND RECOMMENDATIONS

CDC’s property system was neither accurate nor complete. Of 200 items sampled from the
property system, we located 185. We could not locate the 15 remaining items. Based on these
sample results, we estimated that CDC had lost or misplaced approximately $8.2 million worth
of Government property as of September 30, 2007. Furthermore, CDC did not add all newly
acquired property to the property system. Of 200 sampled purchase orders paid during FY 2007,
CDC had appropriately added 171 property items to the property system. For the 29 remaining
items, CDC either had not added the items to the property system or had recorded the items in
the property system at amounts less than the purchase costs. Based on these sample results, we
estimated that the property system was understated by approximately $1.5 million for purchases
made during FY 2007.

These inaccuracies occurred because CDC did not always adjust the property system to reflect
the results of the annual physical inventory and did not barcode all newly acquired property for
entry in the property system. Based on these continuing problems with property accountability,
we concluded that CDC had not fully implemented the recommendations in our prior report to
strengthen management controls over property.

LAWS AND GUIDANCE

Pursuant to “Public Buildings, Property, and Works” (40 U.S.C. § 524(a)(1)), “Each executive
agency shall ... maintain adequate inventory controls and accountability systems for property
under its control ....” The HHS Financial Accounting Policy Manual, part 1-30-20A(2), requires
that agencies record all acquisitions and disposals of property in the general ledger control
accounts and subsidiary property management records. This manual, part 1-30-20F, also
requires that missing property be documented with all known facts and be referred to a
designated individual or Board of Survey for determination of responsibility. 6 Such
determination should be used to adjust the property and financial records.

Section F of PGO’s Material Management Activity Guidance requires that PGO barcode
property and add it to property records upon receipt. Any items acquired through exchange or
trade-in must be coordinated through PGO, and the purchase orders must include sufficient
information to allow accurate barcode information to be entered in the property system. GAO’s
Standards for Internal Control in the Federal Government, page 14, states: “Transactions and
other significant events should be authorized and executed only by persons acting within the
scope of their authority. This is the principal means of assuring that only valid transactions to
exchange, transfer, use, or commit resources and other events are initiated or entered into.”




6
 A Board of Survey consists of three or more members appointed quarterly by CDC management to inquire into the
circumstances of missing property.

                                                      4
INACCURATE AND INCOMPLETE PROPERTY SYSTEM

CDC’s property system included items that we could not locate and did not include, or included
the incorrect value of, some newly acquired items.

Missing Property Still in the Property System

CDC did not always adjust its property system to account for missing property. Specifically, we
could not locate 15 of 200 items sampled from the items listed in the property system. Examples
of missing items included an enterprise storage array with an acquisition cost of $1.8 million and
a video conference system with an acquisition cost of $900,000.

Based on our sample results, we estimated that CDC had not adjusted its property system for
approximately $8.2 million worth of lost or misplaced Government property as of September 30,
2007.

Purchases Not Included in the Property System or Included at the Incorrect Value

CDC did not correctly add all property acquired in FY 2007 to its property system. Of 200 items
sampled from the purchase orders that CDC paid during FY 2007, 17 items were not added to the
property system and 12 items were recorded in the property system at amounts less than the
purchase costs.

For example, a microplate reader with a purchase cost of $36,828 was processed through the
financial system but was not added to the property system. In addition, a microscope was
recorded in the property system as having a purchase cost of $31,866; however, the purchase
order showed a total cost of $61,872. The purchase order contained a number of additional
components for the microscope, but the purchase cost recorded in the property system did not
reflect those additional components.

Based on our sample results, we estimated that property in the property system was understated
by approximately $1.5 million for purchases made during FY 2007.

INADEQUATE CONTROLS FOR UPDATING THE PROPERTY SYSTEM

CDC’s property system was not accurate and complete because CDC did not adjust the property
system based on physical inventory results and did not barcode all newly acquired property.

Annual Physical Inventory Results Not Used To Adjust the Property System

Missing property remained in the property system because CDC did not use the results of the
annual physical inventory to adjust the property system. After conducting the annual inventory,
CDC’s contractor compared the inventory results with information recorded in the property
system and generated an exception report listing those items that were either located and not in
the property system or not located and in the property system. The contractor provided the
exception report to the Custodial Officers to determine the actual disposition of the property.

                                                5
The Custodial Officers researched the property exceptions and, for missing items, submitted their
findings to PGO. However, PGO did not always use the findings to adjust the property system.

Newly Acquired Property Not Barcoded

CDC did not include all newly acquired property in the property system and included the
incorrect value of some items because the items lacked barcodes when they arrived at CDC’s
warehouse before distribution.

    •   Some new items were upgrades to existing items, but the purchase orders for the
        upgraded items did not contain the barcodes of the existing items. Consequently, when
        CDC received the upgraded items, the property system could not link the items to the
        existing items. CDC did not add the upgraded items to the property system because
        individually they did not reach the dollar threshold for inclusion.

    •   In some instances, components that were valued below the dollar threshold for inclusion
        in the property system were purchased and assembled into new, multiple-component
        items; however, neither the components nor the end product was barcoded. Thus, these
        acquisitions were not entered in the property system. For other multiple-component
        items, some components were entered in the property system at cost because they
        exceeded the dollar threshold, but the remaining components were not added to the
        system. Thus, the multiple-component items were recorded in the property system at
        amounts less than the total purchase costs.

    •    Some items were acquired by employees who contacted vendors directly and used
         existing items as trade-ins. PGO did not barcode the items and add them to the property
         system because the employees who traded the property did not inform PGO of the
         transactions.

    •    One item delivered to CDC was not barcoded and added to the property system because
         it remained in its shipping crate awaiting installation by the vendor.

As of April 30, 2008, the general ledger and the property system did not reconcile. Financial
Management Office 7 personnel stated that they were unaware that the general ledger and the
property system had ever been completely reconciled. Had CDC reconciled the general ledger to
the property system, it might have recognized that newly acquired property was not added to the
property system or was added at an incorrect value.

CONCLUSION

In our 1995 report, we recommended that CDC take several steps to strengthen management
controls over property. Our current audit showed continuing problems with accounting for
property as required by Federal law and departmental guidance. These continuing problems

7
 CDC’s Financial Management Office is responsible for providing financial services, budgetary and legislative
guidance, and quality assurance support.

                                                        6
suggest that CDC has not fully implemented the recommendations in our previous report.
CDC’s property system still does not provide a reliable accounting of property.

RECOMMENDATIONS

We recommend that CDC improve its controls over property by:

   •   adjusting the property system based on annual physical inventory results and removing
       from the property system any lost or missing property, including the estimated
       $8.2 million worth that we identified;

   •   ensuring that all newly acquired property items, including at least $1.5 million worth of
       items acquired in FY 2007, are barcoded and correctly added to the property system; and

   •   reconciling the general ledger to the property system to identify any outstanding
       discrepancies and resolving such discrepancies.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC concurred with our recommendations. CDC stated that
it had improved and implemented certain property system policies and procedures and was
developing other enhancements to ensure appropriate receipt, barcoding, inventory, and
disposition of Federal property. In addition, CDC requested a list of the 15 sampled items that
we could not locate. The complete text of CDC’s comments is included as Appendix E.

We will provide the requested list to CDC.




                                                7
APPENDIXES
                                                                                       Page 1 of 2


               APPENDIX A: PROPERTY SAMPLING METHODOLOGY

OBJECTIVE

Our sampling objective was to estimate the value of accountable property (property) listed in the
Centers for Disease Control and Prevention (CDC) Property Management System (property
system) that we could not locate.

POPULATION

The population consisted of items listed in the property system as located in the United States as
of September 30, 2007.

SAMPLING FRAME

The sampling frame consisted of 49,837 property items totaling $349,964,366 that were listed in
the property system as located in the United States as of September 30, 2007. We stratified the
sampling frame as follows:

                                                            Number of Items in
                 Stratum      Value of Property Item         Sampling Frame
                    1       $0 through $4,999.99                 36,270
                    2       $5,000 through $399,999.99           13,537
                    3       $400,000 or more                         30
                   Total                                         49,837

SAMPLE UNIT

The sample unit was a property item.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected 200 property items as follows:

                                        Number of
                            Stratum                    Dollar Value
                                          Items
                               1           100              $160,016
                               2            70             1,822,286
                               3            30            22,411,725
                              Total        200           $24,394,027
                                                                                      Page 2 of 2


SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the items in each stratum. After generating the random numbers for
strata 1 and 2, we selected the corresponding frame items. We selected all 30 items in stratum 3.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the value of missing property items.
             APPENDIX B: PROPERTY SAMPLE RESULTS AND ESTIMATES

                                                 Sample Results

                                                                  Number of          Value of
                                   Sample         Value of
                   Stratum                                         Missing           Missing
                                    Size          Sample
                                                                    Items            Property
                        1            100            $160,016             9               $14,845
                        2             70           1,822,286             4                    01
                        3             30          22,411,725             2            2,767,5241
                     Total           200        $24,394,027             15           $2,782,369


                                 Estimated Value of Missing Property
                         Limits Calculated for a 90-Percent Confidence Interval

                              Point estimate
                                Stratum 1                          $5,384,361
                                Stratum 2                                   0
                                Stratum 3                           2,767,524
                              Total                                $8,151,885

                              Lower limit                          $5,148,893
                              Upper limit                          11,154,877




1
  Because OAS sampling policy requires a minimum of six sample units with the characteristic of interest (i.e., a
missing item) in a stratum for estimation purposes, we did not estimate the value of missing property for stratum 2.
This policy does not apply to stratum 3 because we reviewed 100 percent of the items in the sampling frame for
stratum 3.
                                                                                     Page 1 of 2


         APPENDIX C: PURCHASE ORDERS SAMPLING METHODOLOGY

OBJECTIVE

Our sampling objective was to determine whether property shown on CDC’s paid purchase
orders was entered in CDC’s property system.

POPULATION

The population consisted of purchase order transactions of $1,000 or more that were recorded in
the Unified Financial Management System (financial system) as paid during fiscal year
(FY) 2007.

SAMPLING FRAME

We created our sampling frame from a list of 1,486 purchase orders for property (object
codes 31xxx) that were recorded in the financial system as having been issued and paid during
FY 2007. We eliminated 494 transactions with payments less than $1,000. The resulting
sampling frame consisted of 992 purchase order transactions totaling $8,922,382. We stratified
the sampling frame as follows:

                                                            Number of Items in
                Stratum      Value of Purchase Order
                                                             Sampling Frame
                   1        $1,000 through $19,999.99             884
                   2        $20,000 or more                       108
                  Total                                           992

SAMPLE UNIT

The sample unit was a purchase order transaction.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected 200 purchase order transactions as follows:

                                         Number of          Dollar
                             Stratum
                                           Items            Value
                               1              92            $467,311
                               2            108            4,480,974
                              Total         200           $4,498,285
                                                                                    Page 2 of 2


SOURCE OF RANDOM NUMBERS

We used the OIG/OAS statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We numbered the items in stratum 1 consecutively from 1 to 884. After generating the random
numbers, we selected the corresponding frame items. We selected all 108 items in stratum 2.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the value of property purchased in
FY 2007 that was not recorded or that was improperly recorded in the property system.
APPENDIX D: PURCHASE ORDERS SAMPLE RESULTS AND ESTIMATES

                                Sample Results

                                           Number of
                                                          Value of
                                           Unrecorded
                                                         Unrecorded
                                              and
                 Sample        Value of                     and
       Stratum                             Improperly
                  Size         Sample                    Improperly
                                            Recorded
                                                          Recorded
                                            Property
                                                          Property
                                             Items
         1          92          $467,311       13               $86,113
         2         108         4,480,974       16               651,547
        Total      200     $4,498,285            29            $737,660


                           Estimated Value of
            Unrecorded and Improperly Recorded Property
          Limits Calculated for a 90-Percent Confidence Interval

                 Point estimate
                   Stratum 1                        $827,433
                   Stratum 2                         651,548
                 Total                            $1,478,980

                 Lower limit                      $1,085,635
                 Upper limit                       1,872,326
                                                                                                         Page 1 of 4


    APPENDIX E: CENT ERS FOR DISEASE CONT ROL AND 

                PREVENTION COMMENTS 




   DEPAUMfNT Of HEALTH &. H UMAN SEl.V105


                                                                                c.nter$1or 0i$8QI0 Control
                                                                                   andP~(COCJ
                                                                                 ..,1I8nt.I GA 30333

                                                                                    ocr   21     <ll~




 TO: 	         Daniel R. Levinson
               ' - " GcnonI
               Depe.rtmc:nt ofHea.lth and Human Services
 FROM: 	       Director, Centers for Disease Control and PreventiOQ 

               Administralor, Agc:ocy for Toxic Substances and Disease Rqistry 


 SUBJECT: 	 Office of Inspector OeoeraI's Draft Report: "Revinv o/the Cnllrrs/or Disease
            Control and Prewll/k)n's ACCOU1II4bllfryfIN PropertY' (A..()4-07~ I OS4)


The Ceulen for Disease Control and Prevention (eoc) appreciates the opportunity to review
aDd comment OD !be Office ofInspc:ctor GeDc:raI.'s (010) draft report entitled, MRevfn¥ O/IM
Cenlmfor DJseau ConIroi and Prewntioll 's AccollfllQ/Jilftyfor Property."

As stated in the draft. the objective oflhis report wu 10 deter:minc whether COC's property
s)'3tcm was acctnte and complete. The draft identified four findings related to ovcraLI property
management and also provided three recommendations to address the findinas.

 It is important to recognize that the timing oftbe draft OIG report occurs approximately two
years after CDC, with the help oCtile OIG, had already identified and implemeutcd process
improvements. These improvements include: establishment ofa Property Task FOICC;
identification ofa staff member within each center, institute, and office to serve as their property
6CCOUDtability officer, establishment ofa position for a full time property management officer,
implementation afthe Department ofHea1th and Htunan Services' (HHS) Property Management
Information System (pMIS); establishment oftrainina requirements for aU property management
staff and implementation ofcontrols ensuring training was accomplisbed; and iDaa.sed $e(lior
leader emphasis on property management throughout COCo

10 summary, COC COOCWlI with the m:ommc:ndatiOn!l of tile DIG report. Overtbe past two
yean, CDC has implemented mc:asures that coincide with these recommendations Regarding
010 findings, COC's technical oommeats on the draft report are abo attached. We appreciate
your consideution of the COllll:IlenD c:oolaincd in this memorandum and the technical c:ommetIts
U you develop the final report. The respomcs below willlddre:ss each 010 l"'C(Jmmentiation,
DOting areas where enbancemeats ~ aheady in piKe.
                                                                                                     Page 2 of 4




 Page 2 - Daniel R. Levinson


 CDC ite.,ponse!I to OIG Rerommelldatioy:

 OIG RecolDmeadll.tiQn: Adjusting the property system based on annual physical inventory
 rcsuJts and removing from the property system any lost or missing property. including the
 estimated $8.2 million worth that [the 0101 identified.
 CDC Rt'li ponsc; CDC concurs with this recommendation. and CDC makes needed adjUSlments
 in its property system based on physical invcotory results. CDC's 2009 inven tory accounted for
 99"10 of all a:;sets in PMlS, and the 2010 is currently at 99.98% complete with only 13 items out
 of 55. 566 left: to reconcile.
 Regarding the estimated $8.2 million worth of property identified by the OlG during the count
 of the review, please sec CDC technical comments below.
OIG Re(:ommendation: Ensure that all newly acquil'C<i property items.. including at least $1.5
million worth of items acquired in FY 2007, are bar coded and correctly added to the property
system..
CDC Respollse: CDC concurs with this recommendation. CDC has completed multiple
physical inventory cycles with the numerous process improvements in place. The physical
inventory process includes the application of property management internal controls such a~
reviews ofall purchase orders by inventory management and receiving staff to identifY propcny
req uiring barcodes and improved financial reconciliation processes thai ensures both financial
and property records for object class 31 property are synchronized.
CDC's Infonnation Technology and Services Officc (ITSO) has implemented several automated
tools to assist with accounting for the vast number of information teetmology equipment over lile
past couple of yean. For instance, ITSO utilizes network tools that scan and identifY any and all
equipment that COlUlects to CDC's network. In FY 2010. ITSO located and reported on 25.648
assets.
There are also a number ofother enhancements under development to ensure appropriate receipt,
bar coding. inventory. and, disposition of federal property. For eltample. the revised CDC
Warehouse Policy, nearing completion, improves current procedures and processes to ensure
appropriate receipt and accountability for all acqu.isitions. The Procurement and Grants Officc
Multi-agency Standard Openuing Procedures include property acquired through these processes.
The establishment of a Logistics Mana8ement Branch (LMB) Helpdesk will enable CDC to
request LMB assistance with all p~s of the property life cycle and is cUlR1ltJy operating in a
limited capacity. When completed, the Helpdesk wiU direct CDC requests to the appropriate
LMB personnel for management of Accountable Property.
OIG Recommendation: Reconcile the gencralledger 10 the property system to identify any
outslanding discrepancies and resolving such discrepancies.
                                                                                                     Page 3 of 4




CDC Response: COC concurs with this recommendation.

As ofMay 1, 2008, CDC has been completing reconciliations with respect to property in
accordance with HHS' Financial Reconciliation Interim Policy (PM·2008-4; 04--22-2008). This
policy requires completion within 30 days ofthe end of the quarter a reconciliation of tile
standard genernlledger accounts covering property, plant, and equipment. Furthennore. CDC
completes the reconciliation monthly, which is in addition to the policy requirement.

The ~ncil iation is between the Unified Financial Management System (UFMS) and PMIS.
Each month the following items are identified: (I) purchases in the gcnemlledger not in the
property system, (2) pw-chases in the property system not in the general lcdger, and (3) purchases
in both systems with different values. In accordance with policy, CDC rescarches and tracks
discrepancies and/or out-of-baJance relationships between UFMS and PMIS.

We are happy to discuss any of these comments with you. Please direct any questions regarding
Ih~  comments to Mr. Mike Tropaucr by telephone at (404) 639-7009 or by e-mail at
iggao@cdc.gov.




Attachments
                                                                                                    Page 4 of 4




Plge i, paravaph u.nder SUMMARY or FINDINGS; Plae'" paracnph 1
The report states that 15 items of200 could not be located and estimates that the value of COC's
lost or missing equipment to be $8.2 million. Given the significant differencc betwcenlost
property and missing property (oot inventoried) and the fact that CDC has conducted multiple
inventories since the audit. the opportunity exists to more clearly di stinguish between which of
the 15 items were lost and whieh were missing (not inventoried). Recommend the listing of I S
items be provided to CDC for assessment of their status in the Property Management Infonnation
System (PMIS).
Pl ge I, fo otnole 1
Multiple versions of the Logistics Management Manual exiSL For clarity. recommend the date
of the ve~ion used be included in the footnote.

Plge S, plrlgnph 1
The statement "Examples of missing items included an enterprbe server..... is technicall y
incorrecL Please change this to read ..... an enterprise stonge IIrray, .. .. The equipment that
could not be located at the time the auditors wert at CDC was purc.hased via a Lease to Own
Purchase. The equipment was returned after completion oftbe lease but the property system had
not yet been updated.
